HHS/OIG-Audit--"First Coast Service Options, Inc. Audit of Medicare
Claims by Podiatrists and Optometrists for Comprehensive Nursing Facility Assesments
for Calendar Years 1995 through 1998, (A-09-00-00094)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"First Coast Service Options, Inc.:  Audit of Medicare Claims by
Podiatrists and Optometrists for Comprehensive Nursing Facility Assessments
for Calendar Years 1995 through 1998," (A-09-00-00094)
November 21, 2000
Complete Text of Report is available in PDF format
(1.04 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our audit of claims by podiatrists
and optometrists for comprehensive nursing facility (CNF) assessments during
Calendar Years 1995 through 1998. We found that Florida podiatrists and optometrists
inappropriately billed Medicare for CNF assessment services totaling $3,224,389
and $68,740, respectively. First Coast paid $1,979,769 and $46,372 for
their claims. We made no recommendations because First Coast initiated corrective
action prior to the issuance of our report. First Coast issued a reminder to
podiatrists and optometrists not to bill for any service they are not licensed
to perform, and implemented computer edits to prevent payment of CNF assessments
claimed by podiatrists and optometrists. First Coast agreed with the accuracy
of our report.